Report No. D-2008-074        April 1, 2008




   Memorandum Report on Internal Controls
    Over the Air Force Military Equipment
          Baseline Valuation Effort
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http:/www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
BEIS                          Business Enterprise Information System
CAMS-ME                       Capital Asset Management System-Military Equipment
GAFS-R                        General Accounting and Finance System-Rehost
P&EPO                         Property and Equipment Policy Office
REMIS                         Reliability and Maintainability Information System
SFFAS                         Statement of Federal Financial Accounting Standards
                                      INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704


                                                                                      April 1,2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, A!'iD LOGISTICS
              UNDER SECRETARY OF DEFENSE (COMPTROLLER)/CHIEF
                 FINANCIAL OFFICER
              ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)


SUBJECT: Memorandum Report on Internal Controls Over the Air Force Military Equipment
         Baseline Valuation EfTort (Report No. D-2008-074)

We are providing this repoft for infonnalion and Lise. No writlen response to Ihis report was
required. Therefore, we are publishing this report in final form.

We appreciate the courtesies extended to the staff. Please direct questions to Ms. Amy J. Frontz at
(303) 676-7392 or Mr. Joel K. Chaney at (614)751-1400. The team members are listed in the
inside back cover.




                                     f~amcwl
                                     Patricia A. Marsh, CPA
                                   Assistant Inspector General
                               Defense Financial Auditing Service
                    Report No. D-2008-074 (Project No. D2007-D000FD-0207.000)
                                           April 1, 2008

               Results in Brief: Internal Controls Over the
               Air Force Military Equipment Baseline
               Valuation Effort
                                                            •   exclude costs for repair of military
What We Did                                                     equipment that either did not extend the
The Property and Equipment Policy Office in                     life or improve the capacity of the
the Office of the Under Secretary of Defense for                equipment;
Acquisition, Technology, and Logistics                      •   exclude modification program costs that
requested that the DoD Office of Inspector                      did not exceed the capitalization
General perform procedures to review the                        threshold;
military equipment baseline valuation as of                 •   ensure that the Air Force retained
September 30, 2006. Officials from both offices                 documents supporting receipt of assets
discussed and agreed upon objectives for the                    and that the capitalization date recorded
audit, which included evaluating the reliability                in the equipment inventory records was
of the internal controls over three of the                      based on appropriate receipt
financial statement assertions: valuation, rights               documentation; and
and obligations, and completeness. This report              •   ensure that assets were removed from
addresses two of the assertions: military                       the equipment inventory records in the
equipment valuation and rights and obligations                  accounting period that the assets were
for the military equipment. This report is the                  retired (or removed from service).
first in a series. The final report will summarize
all findings for the series and recommend                Audit Conclusions
corrective actions, as appropriate. We plan to           The Air Force and the Property and Equipment
perform additional audit work on military                Policy Office methodology for military
equipment completeness.                                  equipment baseline valuation as of
                                                         September 30, 2006, did not result in reasonable
What We Found                                            estimates of the initial historical cost of the
DoD and the Air Force did not accurately report          equipment. This report identifies deficiencies in
the historic cost of military equipment in               the procedures and controls used. Until
accordance with generally accepted accounting            corrected, the control deficiencies will result in
principles. Management controls over the                 more than a remote likelihood that a material
development of the historic cost of military             misstatement in the Air Force financial
equipment did not compensate for several                 statements could occur and not be detected.
deficiencies. Specifically, controls over the
development of the military equipment baseline
values did not:
    • exclude initial spares, support and
        training equipment, and logistics support
        costs that should not be capitalized;
    • exclude advance procurement costs that
        should have been retained in work-in-
        process until the related aircraft were
        delivered;
                                                                          F/A-22 Raptor

                                                     i
Table of Contents

Results in Brief                                                            i

Introduction                                                                1

       Objectives                                                          1
       Background                                                          1
       Review of Internal Controls                                         2

Valuation of Military Equipment Acquisition and Modification Programs       3

Appendices

       A. Scope and Methodology                                            11
             Prior Coverage                                                12
       B. Methodology Used to Calculate the Military Equipment Valuation   13
Introduction
Objectives
Our overall objective was to evaluate the methodology used to develop the Air Force
military equipment baseline valuation as of September 30, 2006. Specifically, we
assessed the reliability of the Property and Equipment Policy Office (P&EPO) and the
Air Force internal controls over the valuation and rights and obligations of Military
Equipment.

Background
The P&EPO requested that the DoD Office of Inspector General perform procedures to
review the military equipment baseline valuation as of September 30, 2006. Officials in
the P&EPO and Office of Inspector General discussed and agreed upon objectives for the
audit. The agreed-upon objectives included evaluating the reliability of the internal
controls over three of the financial statement assertions: valuation, rights and obligations,
and completeness of the Military Equipment Program universe. This report addresses
two of the assertions: military equipment baseline valuation and rights and obligations
for the military equipment. We plan to perform additional audit work to complete our
evaluation of the completeness of the Military Equipment Program universe.

The Statement of Federal Financial Accounting Standards (SFFAS) No. 23, “Eliminating
the Category National Defense Property, Plant, and Equipment,” was issued in May 2003
and was effective for periods after September 30, 2002. The Standard included guidance
for capitalizing the value of military equipment including the requirement that the initial
capitalization amount for assets previously considered National Defense Property, Plant,
and Equipment should be based on historical cost. The historical costs should be in
accordance with the asset recognition provisions of SFFAS No. 6, “Accounting for
Property, Plant, and Equipment,” as amended, and should be the initial historical cost for
the items, including any major improvements or modifications. Military equipment is
defined as tangible items that are used in the performance of military missions, have a
minimum cost of $100,000 ($50,000 for vehicles), are not intended for sale, and have an
estimated useful life of 2 years or more.

SFFAS No. 23 recognized that determining initial historical cost may not be practical for
items acquired many years prior to the date the Standard became effective. Accordingly,
the Standard provided that if obtaining initial historical cost is not practical, estimated
historical cost may be used. Other information; such as budget, appropriation, or
engineering documents and other reports reflecting amounts expended; may be used as
the basis for estimating historical cost.

DoD 7000.14-R, the “DoD Financial Management Regulation,” volume 4, chapter 6,
dated July 2006, provides that when acquiring a General Property, Plant, and Equipment
asset, the purchase cost and other costs necessary to bring the asset to an operable
condition are capitalized (capitalizing is recording and carrying forward expenditures for


                                             1
realization of benefits in future periods). DoD Regulation 7000.14-R also provides that
depreciation expenses should be calculated and accumulated using the straight-line
method, which is a calculation that takes the recorded cost (less salvage value) and
divides it equally among accounting periods during the asset’s useful life. Salvage value
represents the residual value that could be obtained from selling the asset after it has been
removed from service and is no longer used for its intended purpose. The event that
triggers the calculation of depreciation is the date of receipt shown on the asset receiving
document or the date the asset is installed and placed in service (regardless of whether it
is actually used). For purposes of computing depreciation, military equipment and real
property assets (for example, buildings, facilities, and structures) do not have salvage
values.

Review of Internal Controls
We determined that material internal control weaknesses in the Air Force military
equipment baseline valuation process existed as defined by DoD Instruction 5010.40,
“Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006. DoD
Instruction 5010.40 states that internal controls are the organization, policies, and
procedures that help program and financial managers to achieve results and safeguard the
integrity of their programs. Although we identified material weaknesses, we are making
no recommendations in this report because the final report will summarize all findings in
the series and recommend corrective actions, as appropriate. A copy of the final report
will be provided to the Air Force senior officials in charge of management controls.




                                              2
Valuation of Military Equipment Acquisition
and Modification Programs
As of September 30, 2006, Military Equipment was $111.2 billion or approximately
78 percent of General Property, Plant, and Equipment and 41 percent of Total Assets
amounts reported in the Air Force financial statements. We reviewed the acquisition and
modification programs for five weapons systems. We evaluated the valuation and the
rights and obligations assertions. Table 1 lists the reported Military Equipment value as
of September 30, 2006, for the programs we reviewed.

           Table 1. Reported Military Equipment Value for Programs Reviewed
                                       (in millions)

                                                                    Less
                                              Acquisition       Accumulated           Net Book
        Military Equipment Program              Cost            Depreciation            Value
       C-130 J                                $ 2,892.5          $ 345.4             $ 2,547.1
       C-130 J Modifications                       30.9                5.3                25.6
       F/A-22                                  13,542.4              975.9            12,566.6
       F/A-22 Modifications                         5.2                0.2                 5.0
       F-16                                    20,746.3           13,557.0             7,189.2
       F-16 Modifications                       2,176.7              966.0             1,210.7
       Predator                                 1,372.2              861.3               510.9
       T-1A Training System                       727.3              433.6               293.7
        Total                                 $41,493.5         $17,144.7            $24,348.8


Valuation of Military Equipment Acquisition Programs
The Air Force completed aircraft acquisitions for most Air Force programs prior to the
issuance of SFFAS No. 23. 1 We reviewed the valuation for one of these programs, the
T-1A Training System. The P&EPO valued the T-1A Training System using expenditure
data from the Mechanization of Contract Administrative Services system provided by the
Program Office. The expenditure data excluded expenditures for initial spares and
support equipment. We concluded that the methodology used to estimate the value of the
T-1A Training System was appropriate and that the estimated value assigned was
reasonable.

We also reviewed the valuation of the C-130J, F-16, F/A-22, and Predator Programs.
The acquisition programs for these aircraft were ongoing when SFFAS No. 23 became
effective. Between July 2003 and February 2005, the P&EPO developed estimated unit



1
    Examples of these programs not included in our review are the B-2A, F-117A, KC-135, and E-3.


                                                     3
costs for the C-130J, F/A-22, F-16, and Predator Programs using budgetary information
and expenditure data reported by Air Force management information systems. The
estimated unit costs were extrapolated to establish the historic acquisition value of the
aircraft based on the number of aircraft in service as of September 30, 2006. The P&EPO
did not adjust the estimated unit costs based on expenditures recorded after the unit cost
estimates were developed. Details on the methodology used to calculate the military
equipment values for the programs we reviewed are provided in Appendix B of this
report.

The historical acquisition cost developed for these four systems was not reasonable
because procedures and controls that the P&EPO used to estimate the value of the four
programs were not effective. The values were overstated because the P&EPO and the
Air Force included costs that should not have been capitalized. These costs included
initial spare and repair parts, support equipment, training equipment, contractor logistics
support, and advance procurements. In addition, we identified deficiencies in the useful
life assigned to the assets reviewed. The incorrect costs are identified in
Table 2.

         Table 2. Incorrect Costs Included in the Military Equipment Value
                                     (in millions)

                                 Support/Training         Contractor       Advance
     Program        Spares         Equipment           Logistics Support Procurement
    C-130J         $ 78.5            $261.4                $ 282.2         $ 78.9
    F/A-22              0                0                  2,359.4         1,680.0
    F-16            2,846.3              0                       0              0
    Predator            0                0                    112.3             0
     Total         $2,924.8          $261.4                $2,753.9        $1,758.9

In addition, we were not able to evaluate accounting adjustments that increased the
program costs for the F/A-22 and Predator Programs. The P&EPO obtained summary
financial transactions from the Business Enterprise Information System (BEIS) for each
military equipment program and recorded those transactions in the Capital Asset
Management System-Military Equipment (CAMS-ME). These transactions summarized
expenditures recorded in the Air Force Accounting System through September 30, 2006.
The P&EPO recorded a $300.7 million adjustment to the F/A-22 Program costs and an
$83.1 million adjustment to the Predator Program costs. When requested, the P&EPO
was not able to provide supporting documentation for the adjustments.

Initial Spare and Repair Parts, Support Equipment, and Training
Equipment
The P&EPO and the Air Force did not reduce the estimated unit costs of the C-130J and
F-16 Acquisition Programs for initial spare and repair parts (referred to as initial spares),
support equipment, and training equipment included in program costs. In a recent report
on the Air Force military equipment baseline, the Air Force Audit Agency reported that



                                              4
for 4 of 10 programs reviewed, Air Force program managers included costs for initial
spares and support equipment in the cost of the program. 2

The costs of initial spares, peculiar and common support equipment, and training
equipment should not be capitalized as military equipment. Air Force activities (depots
and bases) are provided initial spare and repair parts, support equipment, and training
equipment to support depot and field-level maintenance of the aircraft and aircrew and
maintenance training. These Air Force activities record the authorization for and receipt
of initial spares in the Standard Base Supply System. They record the authorization and
receipt of support and training equipment in the Air Force Equipment Management
System. The Standard Base Supply System and the Air Force Equipment Management
System are integrated logistics systems that report asset values as Operating Material and
Supplies and General Property, Plant, and Equipment for the Air Force financial
statements. Including these costs in either the value of Operating Material and Supplies
or General Equipment and in the value of the Military Equipment overstates assets
reported in the financial statements.

Contractor Logistics Support
The P&EPO and the Air Force did not reduce the estimated unit costs of the C-130J, F/A-
22, and Predator Acquisition Programs for contractor logistics support costs included in
the program costs. Contractor logistics support; also referred to as Interim Supply
Support or Reengineered Supply Support, Performance-Based Agile Logistics Support,
and Integrated Logistics Support; is a method of supporting the aircraft that uses the
contractor to provide logistics support and maintenance of the aircraft. For example,
under the Performance-Based Agile Logistics Support for the F/A-22 Program, the
contractor obtained and provided spares, support equipment, and maintenance of the
aircraft as a support service. In the case of the Predator Program, the contractor provided
logistics and maintenance support of the aircraft and related components using spares and
support equipment provided by the Air Force. In either case, the contractor is providing
logistics and maintenance support for the aircraft after the aircraft have been placed in
service. Therefore, the contract cost should be treated as operating expenses of the
current accounting period and should not be capitalized.

Advance Procurement Funding
The P&EPO and the Air Force did not reduce the estimated unit cost of the C-130J and
F/A-22 Acquisition Programs for advance procurement funding provided to the
manufacturer to acquire long-lead-time material. For the F/A-22 Acquisition Program,
the P&EPO included approximately $459.2 million of advance procurement funding
provided in FY 2003 in support of 22 aircraft and $1,575.7 million of advance
procurement funding provided during FY 2004 through FY 2006 in support of 77 aircraft.
Our review indicated that only 17 of the 22 aircraft for which FY 2003 advance
procurement funding was provided were delivered before September 30, 2006. In


2
 Air Force Audit Agency Report No. F2007-0009-FB3000, “Air Force Military Equipment Baseline
Valuation,” May 29, 2007.


                                                5
addition, none of the 77 aircraft procured using FY 2004 through FY 2006 advance
procurement funding were delivered before September 30, 2006. We estimated that
$1,680.1 million of the advance procurement funding was erroneously included in the
cost used to develop the estimated unit cost of the F/A-22. As a result, approximately
$921.3 million was improperly capitalized as of September 30, 2006. The expenditures
of advance procurement funding should have remained as work-in-process until the
related aircraft were delivered.

Military Equipment Useful Life
SFFAS No. 6 requires that depreciation expenses be calculated on General Property,
Plant, and Equipment over the asset’s estimated useful life. It further provides that the
estimated useful life consider factors such as physical wear and tear and technological
change or obsolescence. The business rule established by the P&EPO provides that DoD
Components consider the following factors when determining the useful life of military
equipment:

   •   estimated useful life of the equipment that was used for acquisition planning,
   •   engineering estimates,
   •   historical knowledge of an asset’s utility or usage, and
   •   related information on equipment recovery periods.

Miscommunication between the P&EPO and the Air Force program managers caused the
estimated useful life of the F/A-22 aircraft to be inaccurate. The Air Force and the
P&EPO initially assigned a 20-year useful life to the aircraft. However, the engineering
estimate of the useful life for the F/A-22 aircraft was 23.8 years. The engineering
estimate was based on the aircraft’s design life of 8,000 flying hours and a planned usage
of 336 flying hours per year.

The P&EPO “Internal Validation and Verification Report” on military equipment
valuation, June 13, 2006, recognized the increased useful life. However, the P&EPO did
not revise the depreciation schedule prior to issuing the financial statements for FY 2006.
If the depreciation schedule had been revised, the related depreciation expense for
FY 2006 would have been reduced by $155.8 million.

Valuation of Military Equipment Modification Programs
The Air Force incurs substantial costs to enhance military equipment after the equipment
has been placed in service. Military equipment may be modified to enhance performance
or extend the useful life. Typically, performance-enhancing modifications are made as a
result of new or improved technologies, changes in mission requirements, or in response
to new or modified threats. The FY 2006 President’s Budget included approximately
$2.2 billion (approximately 18.5 percent of the Aircraft Procurement Appropriation) for
modification of in-service aircraft.

DoD Regulation 7000.14-R, volume 4, chapter 6, provides guidance for recognizing
improvements to existing General Property, Plant, and Equipment. The Regulation
specifies that improvements should be capitalized when the costs of the improvement


                                             6
modify functionality or increase the asset’s capability, size, efficiency, or useful life.
However, the cost of an improvement should be capitalized only when the cost of the
improvement equals or exceeds DoD capitalization threshold. The Regulation also
provides that maintenance and repair costs are not considered capital improvements,
regardless of whether the cost equals or exceeds DoD capitalization threshold.
Maintenance is defined as the work required to preserve and maintain equipment or real
property in such condition that it may be effectively used for its designated functional
purpose.

Capitalization Threshold
The P&EPO methodology did not exclude modifications that did not equal or exceed the
$100,000 capitalization threshold. Six of the 35 F-16 modification programs in the
February 2005 “Budget Item Justification” did not exceed the threshold. For example,
the advance weapon integration modification involved expenditures totaling
$50.9 million for the modification installed in 1,047 F-16 aircraft. The average cost per
aircraft, approximately $48,000, did not exceed the capitalization threshold.
Accordingly, the modification should not have been capitalized.

Capitalization of Structural Repair Expenditures
The P&EPO erroneously capitalized expenditures for repair of the F-16 aircraft. For the
F-16 modification program, the P&EPO used expenditure data from multiple systems to
estimate the value reported for the program from May 19, 2004, through
September 30, 2006. The P&EPO used expenditures reported in the System Program
Office Management Information System as of May 18, 2004, and expenditure data that
BEIS extracted from the Air Force accounting system, General Accounting and Finance
System-Rehost (GAFS-R). However, the expenditure data included expenditures for
modifications that neither extended the useful life nor enhanced the capability of the
aircraft. We estimated that expenditures, totaling $339.4 million, were for structural
repairs to the aircraft and should not have been capitalized as military equipment.

Rights and Obligations
To evaluate Air Force rights and obligations for the Military Equipment reported in the
FY 2006 financial statements, we obtained and reviewed the applicable “Material
Inspection and Receiving Report” (receiving report) and equipment inventory records for
the C-130J, F/A-22, and Predator Programs. We also reviewed equipment retirement
dates recorded for the F-16 Program. We did not attempt to obtain and review receiving
reports for the F-16 and T-1A training system programs because aircraft deliveries were
substantially completed before SFFAS No. 23 was issued and because the Air Force did
not retain the documents.

Receiving Reports
The Air Force did not have procedures and controls to maintain evidence of ownership in
a central location to document the acceptance of the military equipment. Air Force
Materiel Command personnel responsible for recording receipt and acceptance in the
Reliability and Maintainability Information System (REMIS) did not retain the receiving


                                             7
reports for the C-130J, F/A-22, and Predator Programs. REMIS is the Air Force military
equipment accountability system. To verify rights and obligations to the equipment, we
requested the receiving reports from the Defense Contract Management Agency and Air
Force program offices.

The responsible program office provided 184 of the 194 receiving reports for the major
components of the Predator Program, and all 53 receiving reports for the C-130J
Program. The Defense Contract Management Agency provided receiving reports for the
F/A-22 aircraft. The receiving reports provided evidence of Air Force ownership.
However, we were not able to obtain the documents within a reasonable time period. For
example, it took 26 days for the responsible Defense Contract Management Agency
office to provide the requested receiving reports for the 69 F/A-22 aircraft delivered
between November 2002 and August 2006. This type of delay could impair the auditor’s
ability to complete audit tests in a reasonable time in order to render an audit opinion.
While the receiving reports confirmed Air Force ownership and rights to the military
equipment, the reports also confirmed errors in the military equipment inventory records.


Equipment Inventory Records
Depreciation schedules for the C-130J and F/A-22 aircraft were understated by
approximately $46 million because the P&EPO and the Air Force did not have
procedures and controls in place to ensure that the military equipment inventory data
used in calculating the initial historical cost were accurate. As discussed previously, the
Air Force Materiel Command did not retain the receiving reports evidencing the
acceptance and ownership of the assets. Personnel responsible for maintaining the
equipment inventory records indicated that, in many cases, the acceptance dates were
based on e-mails from the activities the aircraft were assigned to.

Our review identified erroneous acceptance dates (capitalization dates) and disposal dates
(retirement dates) recorded in REMIS and CAMS-ME. Between February 2005 and
September 30, 2006, the Air Force provided the P&EPO revised acceptance dates and
recorded receipt of additional aircraft in CAMS-ME. We compared the receipt date in
the receiving report to the acceptance dates in REMIS and CAMS-ME as of
September 30, 2006. REMIS acceptance dates were incorrect for 28 of the 46 C-130J
aircraft, and CAMS-ME dates were incorrect for 5 of the aircraft. The depreciation
schedules were also incorrect for three of the aircraft. Although the P&EPO revised the
acceptance date in CAMS-ME based on information the Air Force provided, the P&EPO
did not revise the depreciation schedules for the three aircraft. The impact of erroneous
acceptance dates is illustrated in Table 3.




                                             8
                    Table 3. Impact of Erroneous Acceptance Dates
                                      (in millions)
                                     Erroneous       Valuation
    Acquisition       Assets        Acceptance      Impacted by   Understated
     Program         Received           Date         Date Error   Depreciation
    C-130 J             53                5              3          $ 6.2
    F/A-22              69                7              4           39.8
      Total                                                        $46.0

The P&EPO used the Group and Composite Methodology to arrive at the military
equipment value for the Predator Program. Using this methodology, the P&EPO did not
establish equipment inventory records in CAMS-ME or assign costs to individual assets
received. Instead, the P&EPO established a single asset record to capture the total cost of
the Predator Program. Accordingly, we did not compare the acceptance dates on the
applicable receiving reports to the CAMS-ME capitalization date. Instead, we compared
the acceptance dates on the receiving reports to those in REMIS. This comparison
indicated that the acceptance date in REMIS was incorrect for 29 assets and the
acceptance date was in the incorrect fiscal year for 8 assets. Our review also indicated
that one ground control station and three Predator aircraft were not recorded in REMIS.

In addition, the controls over the maintenance of CAMS-ME inventory did not ensure
that equipment was deleted from the inventory in the accounting period that the assets
were retired or removed from service. The P&EPO and the Air Force initially used
equipment inventory information recorded in REMIS to establish the CAMS-ME
inventory records. Subsequently, the Air Force attempted to adjust the disposal date in
CAMS-ME to more accurately reflect the date that aircraft were retired or removed from
service. While this action was appropriate, it did not result in accurate inventory records.

Retirement Dates
We reviewed the retirement date used in valuing the F-16 aircraft program. Our limited
testing identified 55 aircraft for which the retirement date recorded in CAMS-ME was
erroneous. These aircraft were removed from service as early as 5 years before the date
recorded in CAMS-ME. The aircraft were either transferred to a school or museum,
converted to ground-based maintenance training equipment, reclaimed for parts,
transferred to a non-Air Force activity, or destroyed in an accident or during testing prior
to the date recorded in CAMS-ME. The erroneous weapon system inventory data caused
the F-16 aircraft acquisition value to be overstated by $14.5 million, and the F-16 aircraft
modification value to be understated by $4.8 million.

Conclusion
The P&EPO and the Air Force Military Equipment valuation as of September 30, 2006,
did not result in reasonable estimates of the initial historical cost of the equipment.




                                             9
Specifically, procedures and controls the P&EPO and the Air Force used resulted in an
Air Force Military Equipment valuation that includes:

   •   significant costs that should not be capitalized and

   •   information from inventory records that was not always accurate.

Until corrected, the control deficiencies discussed in this memorandum report will result
in more than a remote likelihood that a material misstatement in the Air Force financial
statements could occur and not be detected. The deficiencies prevent the Air Force from
having assurance that the General Property, Plant, and Equipment balance and
disclosures concerning military equipment in its financial statements are reported in
accordance with accounting principles generally accepted in the United States. Because
of the likelihood of material misstatement, the Air Force must continue to report its
material weakness in internal controls for General Property, Plant, and Equipment until it
makes the necessary improvements. Air Force managers will not be able to obtain a cost-
effective audit of the Air Force financial statements or an individual line item; such as
General Property, Plant, and Equipment; until they implement appropriate internal
controls.




                                            10
Appendix A. Scope and Methodology
We conducted this financial-related audit from June 2007 through March 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

The P&EPO requested that DoD Office of Inspector General perform procedures to
review the military equipment baseline valuation as of September 30, 2006. Officials
from both offices discussed and agreed upon objectives for the audit. The agreed-upon
objectives included evaluating the reliability of the internal controls over three of the
financial statement assertions: valuation, rights and obligations, and completeness of the
Military Equipment Program universe. Specifically, we reviewed the reasonableness and
reliability of the estimated historical acquisition costs that were developed using
numerous sources including budget documents, financial reports, and equipment
inventory reports. As part of the audit, we also followed up on relevant problems
identified in our prior agreed-upon procedures effort focusing on military equipment.

We limited our audit scope and judgmentally selected and reviewed eight military
equipment acquisition and modification programs. The review was not intended to
address the existence of the assets represented by reported program values. We also
limited our completeness assertion review to the aircraft population for eight of the
military equipment acquisition and modification programs versus the entire military
equipment universe. We plan to perform additional audit work to complete our
evaluation of the completeness of the Military Equipment Program universe.

We met with representatives from the P&EPO; the Office of the Assistant Secretary of
the Air Force, Financial Management and Comptroller; the Office of the Assistant
Secretary of the Air Force, Acquisition; the Office of the Deputy Chief of Staff
Installations and Logistics; and Air Force Materiel Command. We also met with
program offices at the Aeronautical Systems Center at Wright Patterson Air Force Base.
We identified deficiencies previously reported by DoD Office of the Inspector General
and the Air Force Audit Agency, inquired with responsible management officials as to
the status of improvements and corrections, and tested controls in place as of September
30, 2006.

Use of Computer-Processed Data
We relied on computer-processed data provided by the P&EPO and its support
contractor, public accounting firm Klynveld, Peat, Marwick, and Goerdeler. The Air
Force Materiel Command and Aeronautical Systems Center also provided computer-
processed data. The program offices extracted data from numerous DoD financial,
acquisition, and logistics systems. These systems included CAMS-ME, REMIS, BEIS,
GAFS-R, the Commander’s Resource Integration System, the System Program Office


                                            11
Management Information System, the Mechanization of Contract Administrative
Services, and the Central Procurement Accounting System. Specifically, we used the
computer-processed data to review program valuation calculations and evaluate
supporting documentation adequacy. We did not determine the reliability of the
computer-processed data. Not evaluating the controls did not affect the results of the
applications of the agreed-upon procedures.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DoD IG) and the
Air Force Audit Agency have issued three reports discussing the financial reporting of
Air Force Military Equipment. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Air Force Audit Agency reports can be accessed at
http://www.afaa.hq.af.mil.


DoD IG
DoD IG Report No. D-2005-114, “Report on Development of the DoD Baseline for
Military Equipment,” September 30, 2005

DoD IG Report No. D-2005-112, “Report on the Review of the Development of the DoD
Baseline for Military Equipment,” September 30, 2005

Air Force
Air Force Audit Agency Report No. F2007-0009-FB3000, “Air Force Military
Equipment Baseline Valuation,” May 29, 2007




                                           12
Appendix B. Methodology Used to Calculate
the Military Equipment Valuation
The P&EPO developed the estimated historic cost for each of the military equipment
acquisition and modification programs. The budgetary and financial data supporting the
estimates were different for each weapon system. With the exception of the Predator
Program, which was valued using the Group and Composite Methodology, the historic
cost was based on average aircraft unit costs developed between July 9, 2003, and
February 28, 2005. Use of the average aircraft unit cost enables the P&EPO to remove
costs when aircraft are retired or removed from service.


C-130J Aircraft
The P&EPO used budget authority, obligation, and expenditure data reported in the
Commander’s Resource Integration System as of February 28, 2005, and the planned
C-130J deliveries through September 30, 2005, to calculate the average unit cost of the
aircraft. The average unit cost was then multiplied by aircraft population as of
September 30, 2006, to establish the acquisition value.


C-130J Modifications
The P&EPO calculated the average cost per equipment item that was in service at the end
of each fiscal year using expenditure data for each appropriation year. A separate asset
record was created for each aircraft for each year. The P&EPO used expenditure data
reported in the Commander’s Resource Integration System as of February 28, 2005, and
expenditure data BEIS extracted from GAFS-R from March 1, 2005, through
September 30, 2006.


F-16 Aircraft
The P&EPO used the weapon system program cost reported in the Budget Item
Justification (exhibit P-40) to derive program expenditures as of September 30, 1996, and
expenditure data reported in the System Program Office Management Information
System from October 1, 1997, through May 18, 2004, to establish total program costs.
Total program costs were divided by the number of aircraft placed in service to establish
the average aircraft cost. The average aircraft cost was then multiplied by aircraft
population as of September 30, 2006, to establish the acquisition value.


F-16 Modifications
Prior to FY 2006, the P&EPO calculated the average modification cost for F-16 aircraft
in service at the end of the year. The average modification cost was then multiplied by
aircraft population as of September 30, 2006, to establish the total value. The P&EPO


                                           13
used expenditure data reported in the System Program Office Management Information
System’s Appropriation Status Summary Report as of May 18, 2004, and expenditure
data BEIS extracted from GAFS-R from May 19, 2004, through September 30, 2006.
The P&EPO erroneously excluded modification costs of $16.8 million from October 1,
2003, to May 18, 2004, from their calculations. For expenditures during FY 2006, the
P&EPO established a single asset record under the Group and Composite Methodology
based on expenditures BEIS extracted from GAFS-R. Personnel at the Air Force
Program Management Office and Office of the Assistant Secretary of the Air Force,
Financial Management and Comptroller adjusted the aircraft population data initially
extracted from REMIS.


F/A-22 Aircraft
The P&EPO used the forecast total weapon system program cost and aircraft population
as of September 30, 2006, as reported in the Budget Item Justification (exhibit P-40),
dated February 2005, to calculate the average aircraft cost. The average aircraft cost was
then multiplied by aircraft population as of September 30, 2006, to establish the
acquisition value.


F/A-22 Modifications
The P&EPO calculated the average modification cost per aircraft that was in service at
the end of the fiscal year using expenditure data reported in the System Program Office
Management Information System’s Status of Appropriations Report as of
December 30, 2003, and data BEIS extracted from GAFS-R from December 31, 2003,
through September 30, 2006. The aircraft population data were extracted from REMIS.


T-1A Training System
The P&EPO used the expenditure data from the Mechanization of Contract
Administrative Services as of June 1, 2004. The expenditure data included both
acquisition and modification costs. The T-1A training system aircraft population
information recorded in REMIS was used to calculate the average aircraft cost. The
average aircraft cost was then multiplied by aircraft population as of September 30, 2006,
to establish the acquisition value.


Predator Program
P&EPO computed the value of the Predator Program using the Group and Composite
Methodology. Expenditure data for the Predator Program acquisition and system
modifications were combined to calculate a single asset value for each fiscal year. The
expenditure data were reported in the Central Procurement Accounting System and
System Program Office Management Information System reports as of July 9, 2003, and
in GAFS-R from July 10, 2003, through September 30, 2006.




                                            14
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the Department of
Defense Office of the Inspector General who contributed to the report are listed below.

Paul J. Granetto
Patricia A. Marsh
Amy J. Frontz
Anthony C. Hans
Joel K. Chaney
Daniel L. Messner
Jason T. Steinhart
Ann L. Thompson
